W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-342

Hong Tang

RuthAnne Visnauskas
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Jeffrey W Lang

Date:

9/8/20

Digitally signed by Jeffrey W Lang
Date: 2021.09.08 12:49:16 -04'00'

(Type or print) Name Jeffrey W. Lang
Mr.

Ms.

Mrs.

Firm

New York State Office of the Attorney General

Address

The Capitol

City & State

Albany, New York

Phone

(518) 776-2027

Miss

Zip 12224
Email

Jeffrey.Lang@ag.ny.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Hong Tang
1288 Columbus Ave., #213
San Francisco, CA 94133

